BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
VAUN MONROE,

Petitioner,
V.

COLUMBIA COLLEGE CHICAGO AND BRUCE SHERIDAN,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Petition for a Writ of Certiorari contains 6,991
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on July 29, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite l 02

1

Franklin Square

www.beckergallagher.com

Cincinnati, Ohio 45249

, Washington, DC 20005

1300 I Street, NW, Suite 400E

Sworn to and subscribed before me by said Affiant
on the date designated below.

Not
[seal]

